Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Access to Home Health Care
    After Hospital Discharge
               2001




                        JULY 2001
                      OEI-02-01-00180
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                         HEADQUARTERS

Jodi Nudelman, Project Leader
                 Tricia Davis, Program Specialist

Vincent Greiber, Lead Analyst
                 Brian Richie, Director, Technical Support Staff

Danielle Fletcher
                             Linda Moscoe, Technical Support

Nicole Gillette

Thomas Purvis, Region IX

Thomas Zimmermann


.



     To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
            Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To assess the effects of the prospective payment system on access to home health care for
         Medicare beneficiaries who are discharged from the hospital.


BACKGROUND

         The Balanced Budget Act of 1997 (BBA) changed the way Medicare pays for home
         health care. The law changed reimbursement for home health services from a cost-based
         method to a prospective payment system of fixed, predetermined rates. To allow time for
         the Centers for Medicare and Medicaid Services to develop this system, the law
         mandated an interim payment system. On October 1, 2000, the prospective payment
         system replaced the interim payment system. This is the first report that looks at access
         to care under the prospective payment system.

         This report is a follow-up to two previous Office of Inspector General inspections,
         Medicare Beneficiary Access to Home Health Agencies, OEI-02-99-00530 and Medicare
         Beneficiary Access to Home Health Agencies: 2000, OEI-02-00-00320. Both reports
         found that hospital discharge planners can place most Medicare beneficiaries in home
         health care. In the most recent report, some discharge planners also noted that the
         placement process has changed and that some HHAs are asking for additional medical
         information about prospective patients.

         We used several methods to address the inspection issues. We conducted a survey of a
         random sample of 208 hospital discharge planners that focused on beneficiary access to
         home health care. We also analyzed the Provider of Services File and the National
         Claims History File.


FINDINGS

Medicare beneficiaries discharged from hospitals maintain access to
home health care

         The prospective payment system does not appear to limit access to home health
         care. Eighty-nine percent of discharge planners report that under the prospective
         payment system they can place all of their Medicare patients who need care in home


Access to Home Health Care After Hospital Discharge 2001   i                         OEI 02-01-00180
         health agencies. Another 7 percent estimate they are able to place all but 1 to 5 percent
         of patients, and 4 percent put the estimate above 5 percent. Discharge planners gave
         similar responses last year. Discharge planners most commonly explain that patients
         whom they cannot place go to a nursing home, are sent home to be cared for by a family
         member, or stay in the hospital.

         Medicare data support discharge planners’ experiences. The data show that there are no
         large changes in the types of Medicare beneficiaries being discharged to HHAs in the last
         five years. Specifically, there are no substantial decreases in the 13 most common DRGs
         discharged to home health care between 1997 and 2001.

         Availability of home health services seems to be sufficient, even though the number
         of agencies has decreased. The majority of discharge planners (83 percent) report that
         there are sufficient home health services available in their area for Medicare patients.
         Medicare data show that the number of agencies dropped by 32 percent, from 10,556 in
         1997 to 7,175 in 2000.

Some patients experience delays associated with certain service needs

         About one quarter of discharge planners reports that they experience delays at least
         sometimes when placing Medicare patients in home health agencies. Many discharge
         planners (61 percent) who report delays say that they are associated with medical
         conditions or service needs. Some explain that patients who need IV therapy may require
         expensive drugs that are not usually reimbursed under Medicare. These patients may
         also need frequent or continuous monitoring of their IV which may require multiple or
         long visits. Patients with wound care needs may also be delayed because they require
         many expensive supplies and frequent visits by home health staff.

         Medicare data, however, show no large increases in the average hospital length of stay
         for Medicare beneficiaries discharged to HHAs. In fact, the average length of stay
         decreased for all but 2 of the 13 most common DRGs between 1997 and 2001.


CONCLUSION

         The results this year are similar to the findings in our prior two inspections on access to
         home health care. We continue to find that Medicare beneficiaries discharged from
         hospitals have access to home health care. In addition, we find little evidence that the
         new prospective payment system that replaced the interim payment system limits
         beneficiaries’ access to care. We encourage the Centers for Medicare and Medicaid
         Services to continue to monitor access to care and home health agencies’ responses to the
         payment system.




Access to Home Health Care After Hospital Discharge 2001   ii                          OEI 02-01-00180
                         TABLE                       OF              CONTENTS


                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Medicare Beneficiaries Maintain Access to Home Health Care . . . . . . . . . . . . . . . . . . . . 7


          Some Patients Experience Delays Associated with Certain Service Needs . . . . . . . . . . . 9



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A:        Recent OIG Home Health Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B:        Confidence Intervals for Key Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C:        Proportion of Beneficiaries Discharged to HHAs by Top DRGs . . . . . . . . . . . . 14


          D:        Average Hospital Length of Stay by Top DRGs . . . . . . . . . . . . . . . . . . . . . . . . . 15





Access to Home Health Care After Hospital Discharge 2001        ii                                              OEI 02-01-00180
                                    INTRODUCTION

PURPOSE

         To assess the effects of the prospective payment system on access to home health care for
         Medicare beneficiaries who are discharged from the hospital.


BACKGROUND

         This inspection is part of the Office of Inspector General’s (OIG) continuing effort to
         monitor home health care. It examines the effects of the prospective payment system
         (PPS) on Medicare beneficiary access to care in response to concerns that changes to the
         payment system may affect the ability of home health agencies (HHAs) to serve
         Medicare beneficiaries. The OIG monitors HHAs’ implementation of these payment
         changes to ensure that beneficiary access is not compromised. This is the first report that
         looks at access to care under the prospective payment system.

         This report is a follow-up to two previous OIG inspections. In 1999, the Centers for
         Medicare and Medicaid Services (CMS) asked the OIG to assess the effects of the
         interim payment system (IPS) on access to home health care. In response, we completed
         two reports entitled, Medicare Beneficiary Access to Home Health Agencies, OEI-02-99-
         00530 and Medicare Beneficiary Access to Home Health Agencies: 2000, OEI-02-00-
         00320. Both reports found that hospital discharge planners can place most Medicare
         beneficiaries in home health care. In the most recent report, some discharge planners
         also noted that the placement process has changed and that some HHAs are asking for
         additional medical information about prospective patients.

         This inspection is part of a current series of four Office of Inspector General inspections
         about Medicare home health care. Medicare Home Health Care- Beneficiaries from the
         Community, OEI -02-01-00070, looks at access to home health care for Medicare
         beneficiaries who have not recently been in the hospital. Medicare Beneficiary
         Experiences with Home Health Care, OEI-02-00-00560, describes the experiences of
         Medicare beneficiaries who obtain and receive home health care. We are also conducting
         a study that examines physician practices in prescribing, certifying, and monitoring
         Medicare home health services. See Appendix A for a list of recent OIG reports relating
         to home health care.




Access to Home Health Care After Hospital Discharge 2001   1                           OEI 02-01-00180
Medicare Home Health Care

         Home health services consist of part-time or intermittent skilled nursing, physical,
         occupational, and speech therapy, and certain related services, including social work and
         home health aide services, all furnished in a patient’s home. Services are typically
         provided by registered nurses, therapists, social workers, or home health aides employed
         by or under contract to a home health agency. These agencies can be freestanding or
         hospital-based and are classified as not-for-profit, proprietary, or governmental.

         Medicare will pay for home health care only if it is reasonable and necessary for the
         treatment of the patient’s illness or injury. In order to be eligible for services, a
         beneficiary must be homebound, under the care of a physician who has established a plan
         of care, and need at least one of the following intermittent and not full time skilled
         services: skilled nursing care, physical therapy, speech language pathology or continued
         occupational therapy at the start of care. Occupational therapy alone does not constitute
         a skilled need. However, after care has begun and other skilled services are discontinued,
         continued occupational therapy is a skilled need. There are no specific limits on the
         number of visits or length of coverage and no co-payments or deductibles.

The Prospective Payment System

         The Balanced Budget Act of 1997 (BBA) changed the way Medicare pays for home
         health care. The law changed reimbursement for home health services from a cost-based
         method to a prospective payment system of fixed, predetermined rates.

         To allow time for the CMS to develop PPS, the BBA mandated an interim payment
         system (IPS) that was in effect from October 1997 to October 2000. The IPS intended to
         control aggregate costs of services provided to beneficiaries. It decreased the per-visit
         limits and subjected HHAs to a new payment limit based on an aggregate per-beneficiary
         amount. Medicare then paid HHAs the lower of either their actual costs, the aggregate
         per-beneficiary limit, or the aggregate per-visit limit.

         Beginning October 1, 2000, PPS replaced IPS. Under PPS, home health agency
         payments are based on a 60-day episode, and are case-mix and wage adjusted. The case
         mix is based on data elements from a patient’s medical assessment that incorporates the
         Outcomes and Assessment Information Set (OASIS), and the projected number of
         therapy hours. Upon receiving a referral, the home health agency performs an initial
         assessment using OASIS that converts the patient’s condition into a numeric score for
         three areas: clinical severity, functional status, and service utilization. These scores are
         totaled and assigned a value, which correlates to a patient’s home health resource group
         (HHRG), which are used to determine payment rates. There are 80 HHRGs representing
         the range of complexity of a patient’s condition.




Access to Home Health Care After Hospital Discharge 2001   2                            OEI 02-01-00180
         In general, HHAs are paid for a full 60-day episode even if the actual services are
         provided during a fewer number of days. HHAs typically receive two payments for each
         60-day episode. At the beginning of an episode, HHAs submit a Request for Advanced
         Payment (RAP) that includes the HHRG. Upon receipt of the RAP, the home health
         agency receives 60 percent of the estimated base payment for the initial 60-day episode.
         At the end of the episode, the agency submits a “clean” claim that accurately details the
         services provided and receives the residual 40 percent of the payment. If a beneficiary is
         still eligible for care at the end of the first episode, the agency can begin a second 60-day
         episode. There is no limit to number of episodes that an eligible beneficiary can receive.

         There are two types of outlier payments, a Partial Episode Payment and a Significant
         Change In Condition payment, that are made in addition to 60-day payments for episodes
         that incur unusually large costs. There is also a Low Utilization Payment Adjustment for
         episodes that include four or fewer visits. These are described in more detail below.

         The Partial Episode Payment (PEP). The PEP adjustment occurs when 1) a
         beneficiary elects to transfer to another HHA, or 2) a beneficiary is discharged and
         returns to the same HHA. The original episode payment is proportionally adjusted to
         reflect the length of time the beneficiary remains under the agency's care before the
         intervening event.

         Significant Change In Condition (SCIC). The SCIC is the proportional payment
         adjustment that occurs when a patient experiences a significant change in condition that
         was not envisioned in the original plan of care. In order to receive a new case-mix
         assignment for purposes of SCIC payment, the HHA must complete an OASIS
         assessment and obtain the necessary physician orders reflecting the significant change in
         treatment approach.

         Low Utilization Payment Adjustment (LUPA). The HHAs receive less than the full
         60-day episode rate if they provide four or fewer visits to a beneficiary. For these
         episodes, HHAs are paid the standardized, service-specific per-visit amount multiplied by
         the number of visits actually provided during the episode.

Trends in Medicare Home Health Care

         After a history of increases, Medicare home health expenditures have decreased since
         1998. Between Fiscal Years 1991 and 1997, home health care annual expenditures rose
         from $4.7 billion to $17.6 billion. This was due to an increase in both number of
         beneficiaries receiving home health services and the number of visits they received. In
         1998, however, spending for home health services began to drop and in Fiscal Year 1999
         was $8.7 billion.




Access to Home Health Care After Hospital Discharge 2001   3                            OEI 02-01-00180
         A number of factors have contributed to the recent decrease in Medicare home health
         spending. These include the prospective payment limits created by the Balanced Budget
         Act of 1997 as well as several initiatives that were implemented in response to concerns
         about fraud and abuse. Specifically, the Health Insurance Portability and Accountability
         Act substantially increased financial support to the OIG’s fraud control efforts.

Other Changes to Medicare Home Health Care

         Medicare home health care has experienced a number of other changes in recent years.
         One significant change is in the coverage rules for vancomycin and venipuncture. As of
         September 1996, Medicare discontinued payment for infusion pump delivery of
         vancomycin, a popular broad spectrum antibiotic used in IV therapy. Medicare covers
         IV drugs only when there is a medical necessity for them to be administered by an
         external infusion pump, and there was insufficient evidence to support the necessity of a
         pump to administer this antibiotic. Additionally, as of February 1998, a patient's need for
         venipuncture no longer constituted a qualifying skilled need. Prior to this change,
         patients whose only skilled need was venipuncture qualified for home care.

         The clarification of the definition of homebound is another recent change to Medicare
         home health rules. There were some concerns about the ambiguity of the definition and
         the potential to deny benefits to eligible beneficiaries who are able to leave their home
         occasionally. In response, the Benefits Improvement and Protection Act of 2000 (BIPA)
         clarified the definition, stating that a person can leave his or her home for certain
         purposes such as attending adult day care activities or religious services and still qualify
         for Medicare home health services.

         Finally, a January 1999 special OIG fraud alert that addressed the role of physicians in
         certifying services also affected Medicare home health. Physicians were cautioned in the
         fraud alert not to: 1) prescribe services and items as a courtesy to a patient or service
         provider, nor prescribe medical equipment, without first making a determination of
         medical necessity; 2) knowingly or recklessly sign false or misleading medical
         certifications; and 3) accept kickbacks in return for their signature.

Related Work

         Three recent reports focus on the effects of IPS on Medicare beneficiary access to home
         health care. In 1999, the GAO released a report entitled Medicare Home Health
         Agencies; Closures Continue, With Little Evidence Beneficiary Access is Impaired. The
         GAO found that although about 14 percent of HHAs closed since 1997, there is little
         evidence that appropriate access to care has been impaired. Additionally, interviews with
         stakeholders in counties that had significant closures indicate few access problems. The
         interviews suggested, however, that as HHAs change their operations in response to IPS,




Access to Home Health Care After Hospital Discharge 2001   4                            OEI 02-01-00180
         beneficiaries who are likely to be costlier than average to treat may have increased
         difficulty obtaining home health care.

         A two-phase study conducted by George Washington University Medical Center in 1999
         also examined the effects of IPS on access to care. The first phase found that the
         majority of HHAs participating in a study in eight States altered their case mix and/or
         practice based on IPS reimbursement. Diabetics, beneficiaries with intensive care needs,
         and chronically ill beneficiaries appeared to be most affected by IPS.

         The second phase of the study interviewed hospital discharge planners in eight States and
         found that most of them reported increased difficulty in obtaining home health services
         for Medicare beneficiaries. Most attributed these difficulties to changes in admitting
         patterns by HHAs, changes in staffing patterns, or the effects of agency closures in their
         service area. Respondents reported that beneficiaries most affected by these changes
         were those with short-term, high-intensity needs or chronic diseases, and/or those
         needing complex wound care or two visits a day.

         A third report, Access to Home Health Services conducted by the Medicare Payment
         Advisory Commission (MedPAC) analyzed health claims data, surveyed home health
         agencies, and convened a panel discussion with individuals familiar with access
         problems. The report found that many HHAs have adopted new admission and discharge
         practices since IPS was implemented. The HHAs reported that they are avoiding high-
         cost patients. They most frequently identified long-term or chronic-care patients as those
         they no longer admit or have discharged as a result of IPS.

        In 2000, the GAO released two studies on PPS. PPS Could Reverse Recent Declines in
        Spending found that program controls may be inadequate and lead to overpayments and
        increased program spending. The other, Medicare Home Health Care: Prospective
        Payment System Will Need Refinement as Data Become Available, found that although the
        CMS’s research and demonstration projects have proven useful in designing PPS,
        information gaps remain that could lead Medicare to overpay for unnecessary services or
        underpay for required care. The report suggests that these consequences may result in
        beneficiaries facing access problems or receiving poor quality of care.


METHODOLOGY

        We used several methods to address the inspection issues. These methods replicate the
        approach used in the prior two OIG inspections on access to home health.




Access to Home Health Care After Hospital Discharge 2001   5                           OEI 02-01-00180
Discharge Planner Interviews

        We conducted a survey of hospital discharge planners that focused on beneficiary access
        to home health care. To do this, we selected a random sample of 225 acute care hospitals
        with 30 or more beds from the 50 States and the District of Columbia. We conducted
        interviews with 208 directors of discharge planning or their designees within a 3 week
        period between April 2, 2001 and April 20, 2001. We achieved a 92 percent response
        rate. This sample of hospitals is the same as the one used in the OIG inspection, Medicare
        Beneficiary Access to Skilled Nursing Facilities: 2001, OEI-02-01-00160.

Analysis of Medicare Data

        We also conducted several analyses of Medicare data. First, we reviewed trends in the
        number of HHAs using the Provider of Services (POS) File. Second, we analyzed
        Medicare data for beneficiaries who were discharged from a hospital to home health care.
        Specifically, we analyzed the proportion of Medicare beneficiaries discharged to home
        health care by key diagnosis related group (DRG) to determine the extent to which HHAs
        are admitting different types of patients. We also analyzed the length of hospital stays by
        key DRGs to examine whether patients are experiencing longer delays before being
        admitted to HHAs.

        These analyses are based on data from the National Claims History File. We identified all
        beneficiaries who: 1) had a home health claim in the first quarter of 2001, and; 2) had a
        hospital discharge within 15 days prior to their home health claim. We then compared
        these data to the same data for beneficiaries who met these criteria for the first quarter of
        1997, 1998, 1999, and 2000. Note that this definition is the same as the one used in the
        inspection, Medicare Home Health Care - Beneficiaries from the Community, OEI-02-01-
        00070.1

Limitations

        The data for the most recent quarter, January to March 2001, are not as complete as the
        other quarters of data. Additional and adjusted claims will be collected for this quarter
        that may alter these data.

        This inspection was conducted in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.




         1
          This definition differs from the one used in the prior two OIG inspections on access to home health.
These studies were based on data for all beneficiaries who were discharged from a hospital in the first quarter of
each year and who had a home health claim within 30 days of discharge.

Access to Home Health Care After Hospital Discharge 2001   6                                          OEI 02-01-00180
                                              FINDINGS

Medicare beneficiaries discharged from hospitals maintain access to
home health care

PPS does not appear to limit access to home health care

        Eighty-nine percent of discharge planners report that under PPS they can place all of their
        Medicare patients who need care in home health agencies. Another 7 percent estimate
        they are able to place all but 1 to 5 percent of patients, and 4 percent put the estimate
        above 5 percent. (See Figure 1). Most discharge planners (90 percent) also report no
        change in the number of patients whom they cannot place since last October when PPS
        was implemented. Discharge planners most commonly explain that patients whom they
        cannot place go to a nursing home, are sent home to be cared for by a family member, or
        stay in the hospital.

                                              Figure 1
                     Proportion of Discharge Planners Placing Patients in HHAs




                                                                 Source: Discharge Planner Survey, 2001



        We looked at several factors that may affect access to care and found no large differences.
        Specifically, discharge planners in urban and rural hospitals are able to place Medicare
        beneficiaries in home health care at similar rates. There are also no differences in the
        proportion of discharge planners from hospitals with affiliated HHAs and those without
        affiliations who can place all of their Medicare patients. Further, discharge planners’
        ability to place Medicare beneficiaries under PPS is similar to that of discharge planners
        last year under the interim payment system.



Access to Home Health Care After Hospital Discharge 2001   7                            OEI 02-01-00180
        Medicare data support discharge planners’ experiences. The data show that there are no
        large changes in the types of Medicare beneficiaries being discharged to HHAs in the last
        5 years. A decrease in a diagnosis related group (DRG) may indicate that patients with
        that condition are experiencing problems with access to care. With one exception, there
        are no substantial decreases in the 13 most common DRGs discharged to HHAs between
        1997 and 2001.2 These 13 DRGs represent about 43 percent of all beneficiaries
        discharged to home health care. (See Appendix C.)

        Medicare data also suggest that beneficiaries who are discharged from hospitals have
        access to care. The data show that beneficiaries receiving home health care are
        increasingly coming from the hospital as opposed to the community. In 2000, almost half
        of Medicare beneficiaries in home health care came from a hospital within 15 days of their
        discharge. Another 14 percent came from a SNF, while the remaining 38 percent came
        from the community. Between 1998 and 2000, the number of beneficiaries coming from
        the hospital increased by 3 percent, whereas those coming from the community decreased
        by 10 percent.

Availability of home health services seems to be sufficient, even though the
number of agencies has decreased

        The majority of discharge planners (83 percent) report that there are sufficient home
        health services available in their area for Medicare patients. About 63 percent note that
        the availability of services is about the same as last year under the interim payment
        system. Discharge planners also report that they need to contact an average of 1 to 2
        agencies to place a patient, about the same number discharge planners reported last year.

        At the same time, there continues to be a decline in the number of home health agencies in
        some areas. About one third of discharge planners say that there is a decrease in the
        availability of home health services since last year. Medicare data support these
        observations and show that the number of HHAs nationwide has decreased. As shown in
        Figure 2, the number of agencies dropped by 32 percent, from 10,556 in 1997 to 7,175 in
        2000.




         2
           The proportion of beneficiaries in DRG 106 decreased by 2.4 percentage points due to a change in the
definition of that DRG that occurred in 1998.



Access to Home Health Care After Hospital Discharge 2001   8                                       OEI 02-01-00180
                                                  Figure 2

                                       Number of Home Health Agencies,

                                                 1997-2000


                        12,000


                        10,000        10,556
                                                           9,398
                         8,000
                                                                       7,924
                         6,000
                                                                                    7,175


                         4,000


                         2,000


                              0
                                       1997                1998        1999          2000


                                                                          Source: Provider of Services File

Some patients experience delays associated with certain service
needs

        About one quarter of discharge planners report that they experience delays at least
        sometimes when placing Medicare patients in home health agencies.3 About 22 percent
        also note that the number of delays have increased since last October when PPS was
        implemented. These responses are similar to those given by discharge planners last year
        under the interim payment system.

        Many discharge planners (61 percent) who report delays say that they are associated with
        certain medical conditions or service needs. They most frequently note that patients who
        need IV antibiotics and/or expensive drugs and those who require wound care are
        delayed. Several also report that delays are associated with conditions requiring multiple
        visits per day. These are the same medical conditions and service needs discharge
        planners describe for beneficiaries who they cannot place.




         3
         A placement delay occurs when a patient is medically cleared by a doctor but no home health services
have been arranged.



Access to Home Health Care After Hospital Discharge 2001           9                                    OEI 02-01-00180
        Medicare data, however, show no large increases in the average hospital length of stay for
        Medicare beneficiaries discharged to HHAs. In fact, the average length of stay decreased
        for all but 2 of the 13 most common DRGs between 1997 and 2001.4 Specifically, the
        average length of stay decreased by 2.2 days and 1.1 days for rehabilitation and specific
        cerebrovascular disorders, respectively and by less than one day for all the other DRGs.
        (See Appendix D.)

        About half of discharge planners who report that delays are associated with medical
        conditions or service needs attribute these delays to PPS. Some explain that patients who
        need IV therapy may require expensive drugs that are not usually reimbursed under
        Medicare. These patients may also need frequent or continuous monitoring of their IV
        which may require multiple or long visits. Patients with wound care needs may also be
        delayed because they require many expensive supplies and frequent visits by home health
        staff.

        Some discharge planners also attribute delays to staffing issues. They observe that HHAs
        do not have enough skilled nurses or home health aides to provide necessary services. A
        few discharge planners note that staffing shortages are a problem in rural areas where staff
        have to travel long distances to reach beneficiaries. Additionally, a few explain that some
        patients experience delays because HHAs cannot afford to pay staff under PPS to provide
        care for patients with certain conditions.

        Finally, discharge planners mention several other factors that affect the placement process.
        About 40 percent report that HHAs have changed their admissions practices since PPS
        was implemented last October. Many explain that HHAs are requesting more information
        about patients and screening patients before making admission decisions. Some also note
        that HHAs are conducting more thorough evaluations in order to assess whether a patient
        has a skilled need and is eligible for Medicare. In addition, some discharge planners
        mention that HHAs are putting more emphasis on teaching family members and others to
        provide care and that finding individuals willing to be trained is often difficult.




         4
           The average length of stay for beneficiaries in DRG 106 and 107 increased but this may be due to a
change in the definition of these DRGs that occurred in 1998.



Access to Home Health Care After Hospital Discharge 2001   10                                       OEI 02-01-00180
                                        CONCLUSION

        The results this year are similar to the findings in our prior two inspections on access to
        home health care. We continue to find that Medicare beneficiaries discharged from
        hospitals have access to home health care. In addition, we find little evidence that the new
        prospective payment system that replaced the interim payment system limits beneficiaries’
        access to care. We encourage the Centers for Medicare and Medicaid Services to continue
        to monitor access to care and home health agencies’ responses to the payment system.




Access to Home Health Care After Hospital Discharge 2001   11                          OEI 02-01-00180
                                                                             APPENDIX A


                           Recent Office of Inspector General

                               Home Health Inspections


Office of Inspector General, U.S. Department of Health and Human Services, “Medicare
Beneficiary Experiences with Home Health Care,” OEI-02-00-00560, July 2001.

Office of Inspector General, U.S. Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies: 2000,” OEI-02-00-00320, September 2000.

Office of Inspector General, U.S. Department of Health and Human Services, “Adequacy of
Home Health Services: Hospital Readmission and Emergency Room Visits,” OEI-02-99-00531,
September 2000.

Office of Inspector General, U.S. Department of Health and Human Services, “Medicare Home
Health Agency Survey and Certification Deficiencies,” OEI-02-99-00532, September 2000.

Office of Inspector General, U.S. Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.




                                                                             APPENDIX B



Access to Home Health Care After Hospital Discharge 2001   12                   OEI 02-01-00180
                        Confidence Intervals for Key Findings
        We calculated confidence intervals for key findings for discharge planners. The point
        estimate and 95% confidence intervals are given for each of the following:


                                                                   Point     Confidence
                  Key Findings                              n
                                                                  Estimate    Interval
  89 percent report they can place all of their
  Medicare patients with home health care under             208     89%          ±4.4%
  PPS.

  90 percent report no change in the number of
  patients whom they cannot place since last                206     90%          ±4.1%
  October when PPS was implemented.

  The majority of discharge planners (83 percent)
  report that there are sufficient home health
  services available in their area for Medicare
                                                            208     83%          ±5.1%
  patients.

  About 63 percent note that the availability of
  services is about the same as last year under the         208     63%          ±6.6%
  interim payment system.

  About one quarter of discharge planners (23%)
  report that they experience delays at least
  sometimes in placing Medicare patients in home
                                                            208     23%          ±5.7%
  health care.

  22 percent note that delays have increased since
  last October when PPS was implemented.
                                                            206     22%          ±5.7%

  Many discharge planner (61 percent) who report
  delays say that they are associated with certain          135     61%          ±8.2%
  medical conditions or service needs.

  About half of discharge planners who report that
  delays are associated with service needs attribute        83      57%          ±10.7%
  these delays are because of PPS.

  About 40 percent of discharge planners report
  that HHAs have changed their admissions
  practices since PPS was implemented last
                                                            208     40%          ±6.6%
  October.




Access to Home Health Care After Hospital Discharge 2001   13                        OEI 02-01-00180
                                                                                                        APPENDIX C



              Proportion of Beneficiaries Discharged to HHAs

                by Top Diagnosis Related Groups (DRGs)**


                                                                                                            1997-2001
                                              1997          1998      1999         2000         2001
        Initial Hospital DRG                                                                                Difference
   DRG 106-Coronary bypass with
                                              2.5%          2.3%      0.1%         0.1%         0.1%             -2.4
   PTCA*

   DRG 079- Respiratory infections
                                              1.7           1.3        1.2          1.1           1.0            -0.8
   and inflammations

   DRG 014- Specific
                                              3.3           2.9        2.8          2.7           2.7            -0.6
   cerebrovascular disorders

   DRG 148- Major small and large
                                              2.1           2.0        1.8          1.8           1.8            -0.3
   bowel procedures

   DRG 088- Chronic obstructive
                                              4.2           4.9        5.1          4.6           4.1            -0.1
   pulmonary disease

   DRG 121- Circulatory disorders
   w/acute myocardial infarction &            1.8           1.7        1.8          1.7           1.7            -0.1
   major complications

   DRG 089- Simple pneumonia
                                              4.9           6.1        6.5          6.2           4.9            0.0
   and pleurisy

   DRG 127- Heart failure and
                                              6.7           6.9        6.8          6.7           6.8            0.1
   shock

   DRG 296- Nutritional and misc.
                                              1.5           1.5        1.6          1.7           1.6            0.1
   metabolic disorders

   DRG 107- Coronary bypass with
                                              1.6           1.5        2.1          2.1           2.1            0.5
   cardiac catheterization*
   DRG 209- Major joint and limb
   reattachment procedures of                 4.5           4.5        4.4          4.4           5.2            0.7
   lower extremity
   DRG 116-Other permanent

   cardiac pacemaker implant or
                                              0.8           1.6        1.6          1.7           1.7            1.0

   PTCA with coronary artery stent

   implant*


   DRG 462- Rehabilitation                    7.1           6.9        7.8          8.5           9.1            2.0

                                                                                       Source: National Claims History File

 *Note: In 1998, the CMS reclassified DRG 107 as DRG 106, coronary bypass with cardiac catheterization. DRG 109 was
classified as coronary bypass without catheterization, formerly DRG 107. DRG 106 was classified as coronary bypass with
PTCA. Under DRG 116, PTCA with coronary artery stent implant replaced AICD lead or generator procedure.

**Note: Differences may be due to rounding.




 Access to Home Health Care After Hospital Discharge 2001      14                                            OEI 02-01-00180
                                                                                                         APPENDIX D


     Average Hospital Lengths of Stay for Beneficiaries Discharged to
           HHAs by Top Diagnosis Related Groups (DRGs)**

                                              1997          1998       1999         2000         2001        1997-2001
         Initial Hospital DRG                 Days          Days       Days         Days         Days        Difference

   DRG 462- Rehabilitation                     16.6         15.4        15.4         15.1         14.4           -2.2

   DRG 014- Specific
                                               10.3         9.6         9.4           9.5          9.1           -1.1
   cerebrovascular disorders

   DRG 209- Major joint and limb
                                               6.5          6.1         6.0           5.9          5.7           -0.8
   reattachment procedures

   DRG 121- Circulatory disorders
   w/acute myocardial infarction &             9.6          9.4         9.2          9.1           8.8           -0.8
   major complications
   DRG 148- Major small and large
                                               14.2         13.6        13.8         13.9         13.6           -0.6
   bowel procedures

   DRG 089- Simple pneumonia and
                                               8.6          8.3         8.2           8.2          8.1           -0.5
   pleurisy

   DRG 296- Nutritional and misc.
                                               7.3          7.1         7.1           7.0          7.0           -0.3
   metabolic disorders


   DRG 127- Heart failure and shock            7.8          7.6         7.6          7.5           7.5           -0.3

   DRG 088- Chronic obstructive
                                               8.3          7.8         7.9           8.0          8.0           -0.3
   pulmonary disease

   DRG 116-Other permanent
   cardiac pacemaker implant or
                                               7.6          7.4         7.4           7.4          7.4           -0.3
   PTCA w/coronary artery stent
   implant*

   DRG 079- Respiratory infections
                                               11.1         11.0        11.1         11.5         11.0           -0.1
   and inflammations

   DRG 106-Coronary bypass with
                                               11.7         11.4        12.2         12.1         12.2            0.4
   PTCA*

   DRG 107- Coronary bypass with
                                               9.1          8.6         11.2         11.1         11.2            2.1
   cardiac catheterization*
                                                                                       Source: National Claims History File

*Note: In 1998, the CMS reclassified DRG 107 as DRG 106, coronary bypass with cardiac catheterization. DRG 109 was
classified as coronary bypass without catheterization, formerly DRG 107. DRG 106 was classified as coronary bypass with
PTCA. Under DRG 116, PTCA with coronary artery stent implant replaced AICD lead or generator procedure.

**Note: Differences may be due to rounding.




 Access to Home Health Care After Hospital Discharge 2001     15                                             OEI 02-01-00180
